<html>
<title> - ELECTIONS IN IRAN: THE REGIME CEMENTING ITS CONTROL</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                          ELECTIONS IN IRAN: 
                    THE REGIME CEMENTING ITS CONTROL 

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 18, 2013

                               __________

                           Serial No. 113-46

                               __________

        Printed for the use of the Committee on Foreign Affairs

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

81-569 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Alireza Nader, senior international policy analyst, RAND 
  Corporation....................................................     8
Suzanne Maloney, Ph.D., senior fellow, The Saban Center for 
  Middle East Policy, Brookings Institution......................    19
Mr. Karim Sadjadpour, senior associate, Middle East Program, 
  Carnegie Endowment for International Peace.....................    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Alireza Nader: Prepared statement............................    10
Suzanne Maloney, Ph.D.: Prepared statement.......................    21
Mr. Karim Sadjadpour: Prepared statement.........................    31

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53


          ELECTIONS IN IRAN: THE REGIME CEMENTING ITS CONTROL

                              ----------                              


                         TUESDAY, JUNE 18, 2013

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and the ranking member, Mr. 
Deutch, for 5 minutes each for our opening statements, I will 
then recognize other members seeking recognition for 1 minute 
each. We will then hear from our witnesses. Thank you to all of 
you for being here. And without objection, the witnesses' 
prepared statements will be made a part of the record, and 
members may have 5 days to insert statements and questions for 
the record subject to the length limitation of the rules.
    The chair now recognizes herself for 5 minutes.
    In our fervor to repudiate all things Ahmadinejad and force 
ourselves into believing things in Iran are set to change, the 
West has rushed to anoint Hassan Rouhani as the moderate hope 
who will ease tensions between Iran and the West. And in 
wanting this change so badly, we've quietly lulled ourselves 
into submission accepting that a Rouhani victory was the choice 
of the Iranian people who wanted change, unwilling to see that 
this was still just a victory for the Supreme Leader and the 
regime.
    The people never really had a choice. They were forced to 
choose from one of Khamenei's candidates, and this is what 
Khamenei wanted. The whole thing was rigged from the start.
    Khamenei is once again playing games with the West. In 
Rouhani he now has the perfect opportunity to coax the United 
States and the international community to ease up on sanctions 
while using Rouhani as the fall guy should public opinion turn.
    The regime in Tehran will use his election as an 
opportunity to undermine support for sanctions and buy time to 
fight back the effects the sanctions have had on Iran, while 
marching forward with its nuclear program. And we must see this 
for what it is, and not get caught up in the enthusiasm that 
has accompanied nearly every Presidential election in Iran 
since the 1990s, because if history has shown us anything, it 
is that these elections tend to bring with them a false hope 
that the regime is cracking when, in fact, it is just cementing 
its control.
    These elections were anything but free and fair. It is not 
fair when half of the population is disqualified from running 
because they are of the wrong gender, or they are a religious 
minority, and they aren't free when the candidates are 
handpicked by the regime, assuring that no matter who wins the 
regime has their man in office.
    And that is what unfolded in Iran last Friday. The people 
didn't have a free choice, and they got stuck with Rouhani, the 
consummate regime insider.
    I would urge caution to those so desperate to label Hassan 
Rouhani as a reformist or moderate. He is a man who has been in 
the core of the inner circle of the regime since the beginning 
having been close with the Founding Clerics of the 1979 Islamic 
Revolution, including the Grand Ayatollah Khameini. And how 
quickly those who need Rouhani to be something that he will 
never be, whitewash his past so that his election fits this 
reformist narrative.
    They seem to have forgotten that in 1999, Rouhani serving 
the regime led a relentless and violent crackdown on a student 
uprising. During a pro-regime rally in response o the students, 
Rouhani reportedly declared,

        ``From today our people shall witness how in the arena 
        our law enforcement force shall deal with these 
        opportunists and rightist elements if they simply dare 
        to show their faces.''

    This speech was reportedly followed by an IRGC force 
storming through university campuses, arresting, torturing, and 
murdering those who sought reform. And now this is what we have 
pinned our hopes to as a reformer in Iran.
    I urge all of us to remember that, ultimately, the power in 
Iran rests with Khamenei, the IRGC, and the regime. I fear that 
we will be too eager to lift the pressure on the regime under 
the false narrative of reform and moderation.
    The U.S. position must be clear: No concessions, no 
rewards, no easing of sanctions. The U.S. must not give up any 
ground unless the regime takes verifiable steps to halt its 
enrichment and dismantle its nuclear program.
    Let us not forget that he was part of the regime that 
concealed its nuclear program from the world for 20 years 
before becoming the face of that program as Iran's top nuclear 
negotiator. And while many point to the halting of enrichment 
in 2004 under his watch as positive signs, I'd advise you to 
use caution with this rationale. This was a delay tactic that 
the regime, and even Rouhani himself had admitted to using in 
order to push the nuclear program forward.
    During the campaign, Rouhani reportedly bragged that under 
his watch Iran didn't suspend the program. No, indeed, they had 
completed it.
    And with that, I'm pleased to yield to the ranking member, 
my friend, Ted Deutch.
    Mr. Deutch. Thank you, Madam Chairman, for holding this 
important hearing today.
    Last Friday, the Iranian people participated in what was 
expected to be an uninteresting election with a predetermined 
result to replace the pugnacious and repugnant Mahmoud 
Ahmadinejad. Instead, the Iranian people rallied around the 
token moderate, Hassan Rouhani, proving their desire to chart a 
different course for their future and improve Iran's relations 
with the international community. And while I commend the 
Iranian people for their inspiring civic participation, this 
election should not be viewed as the birth of Jeffersonian 
democracy in Iran.
    Before even one ballot was cast, the Supreme Leader went to 
great lengths to insure that one of his own proxies would be 
elected by disqualifying hundreds of qualified candidates. Even 
regime stalwart Rafsanjani was disqualified, thus signifying 
that political space in Iran had contracted to the point where 
it appeared that Iranian elections were little more than 
Ayatollah Khameini's personal selection.
    Furthermore, this election occurred in a staggeringly 
repressive environment. In the weeks leading up to the 
election, the regime harassed pro-reform activists, throttled 
the internet, blocked foreign Persian language television 
stations, shut down university campuses, denied permissions to 
poll workers and conducted cyber attacks against numerous 
Iranian opposition sites.
    Yet, in spite of brutal repression, we saw the Iranian 
people again find a small opportunity to have their voices 
heard and advocate for change in Iran.
    Of course, you can't think of Iran's victory without 
remember those who demanded their voices be heard in 2009, when 
we witnessed massive rallies against the status quo that were 
brutally suppressed by the government.
    However, as we learned this weekend, the Green Movement and 
the people's desire for change endures. Presented with a small 
opening, the people delivered a powerful message that the 
Iranian people want to shape their own future.
    Now, Rouhani campaigned on a platform of reforming the 
economy and improving relations with the international 
community, and freeing political prisoners, all of which 
challenges the status quo.
    At a rally of nearly 9,000 supporters days before the 
election he told the crowd,

        ``If you want Iranian officials to stop presenting 
        inaccurate economic data, if you want the rial to 
        regain its value, if you want the Iranian passport to 
        be respected again, come to the ballot boxes.''

    This seemingly go for broke strategy created a last minute 
surge in massive public support that persuaded a security-
conscious regime to concede a Rouhani win. And as impressive as 
this civic activism is, Iran will be judged on its actions.
    We know that Rouhani is only a moderate candidate on the 
Iranian continuum, and that he has made hostile comments about 
the United States, and about Israel. We know that despite the 
attempts to paint him as a reformer, he still is a regime 
insider, intensely loyal to the Supreme Leader. He has not 
disavowed Iran's nuclear ambitions, far from it. And we know 
that the reformist agenda have been stymied by the regime in 
the past.
    We know that a different President won't change the fact 
that the Supreme Leader will continue to have veto power over 
the issues of foremost concern to the United States, and to our 
allies.
    The U.S. has worked hard to create an unprecedented 
international community united against Iran's illicit nuclear 
weapons program. And it remains to be seen how a new President 
will affect that dynamic. But one thing is clear, being 
deferential to the Supreme Leader or being silent about human 
rights abuses will not compel Iran to moderate its nuclear 
policies.
    I hope the Iranian regime will heed the will of the Iranian 
people and make choices that create a better future for all 
Iranians. It's time for this regime to engage with the U.S. 
Government and our allies in a substantial way on the nuclear 
issue. It's time for Iran to end its support of terrorism, end 
its support of Assad's murderous regime, and respect the basic 
rights of its people.
    Coming into this election, we all expected the Supreme 
Leader would promote a yes man like nuclear negotiator Jalili, 
but as we witnessed, the status quo is no longer sustainable. 
Many analysts have said that Iran's number one priority is to 
ensure regime survival.
    Well, if this brutal regime wants to survive while ruling 
over a young population frustrated with everyday life, then it 
must fundamentally alter its behavior. Otherwise, the election 
of this seemingly moderate candidate won't yield the last 
results that the Iranian people so powerfully advocated for at 
the polls.
    Thank you, and I look forward to discussing this further 
with our distinguished panel.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch.
    I will now recognize members for any 1-minute statements 
they like to make. We will start with Mr. Health, Mr. Kinzinger 
from Illinois.
    Mr. Kinzinger. Well, thank you, Madam Chair. And thank you 
for holding this hearing, and thank you to the witnesses for 
coming. It's going to be a very interesting thing.
    I think if we were 10 years ago right now and this had 
happened, I think we'd be in a much different position. We 
could say hey, let's see how this kind of plays out. Let's see 
if this guy really is a moderate. Let's see if Iran ends up 
engaging with the West.
    I think our big concern, as you've heard from everybody 
that's spoken so far is Iran is on the edge of attaining a 
nuclear weapon, and being a major game changer in the region. 
So, while I really want to celebrate a potentially positive 
move here, I remain very, very concerned that this is either a 
stall tactic, or that the train has already left the station 
and we're going to see Iran attain a nuclear weapon.
    So, I only have a minute to speak, but I just want to add 
myself to the voice of what I think you'll hear on a lot of 
folks on the panel, which is we cannot allow Iran to get a 
nuclear weapon. We cannot allow this to be an impetus for 
saying well, we're going to soften our stance, we're going to 
back off a little bit, we're going to re-engage diplomatically 
because they really want to make a difference. And with that, I 
yield back.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Cicilline, America's mayor.
    Mr. Cicilline. Thank you, Chairman Ros-Lehtinen, ranking 
member Deutch for holding today's hearing on this important 
issue.
    The continuing threat that Iran poses to international 
peace and stability remains a paramount concern of the United 
States and the entire world, and addressing that threat must be 
a top U.S. foreign policy priority.
    Over the weekend, the people of Iran elected former chief 
nuclear negotiator, Hassan Rouhani as the nation's next 
President. Although he's considered much more moderate and 
reform-minded than his predecessor, with Rouhani's support Iran 
continues its pursuit of nuclear weapons in defiance of 
international sanctions. And while he has been hailed by some 
as a champion of reform, Rouhani was, nevertheless, selected 
with the final approval of the Supreme Leader who remains in 
full control of Iran's nuclear program and military.
    As my colleagues have described this morning, to describe 
the Presidential election as full and fair elections would be a 
gross overstatement; but, nonetheless, understanding the impact 
of Iran's elections on the Iranian people as well as the rest 
of the world is critical, and I look forward to hearing the 
testimony of our witnesses this morning.
    Thank you, and I yield back.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Cotton of Arizona is--Arkansas, sorry, is recognized.
    Mr. Cotton. I'm sure Arizona is a wonderful state but not 
quite as great as Arkansas.
    The Iranian elections were not free and fair. They were a 
sham election and Iran is a sham democracy. Iran remains a 
totalitarian theocracy. All candidates were screened by the 
mullahs who also censored and suppressed the media during the 
so-called campaign.
    Mr. Rouhani is not a moderate. He was part of the 1979 
ruling clique, and a devoted follower of Ayatollah Khameini. He 
led the crackdown of the 1999 student uprising, and is a 
nuclear negotiator for Iran's regime. He often deceived and 
dissembled with the West.
    If Iran wants to rejoin the civilized world, it's very 
clear what they should do, not have sham elections. They should 
denuclearize in an objective, verifiable way subject to 
international inspections. They should withdraw all support for 
Bashar Assad, including the 4,000 troops they've sent to Syria 
to support him. They should stop funding and arming Hezbollah. 
They should quit exporting terrorism around the world, 
including against our troops in Afghanistan. They should 
recognize Israel's right to exist. They should respect the 
civil, political, and religious liberties of their own people, 
and they should hold a genuine election, not a sham election.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Schneider of Illinois.
    Mr. Schneider. Thank you, Madam Chair. Thank you to the 
witnesses.
    The election of Hassan Rouhani begins a new chapter for the 
Iranian people. Receiving over 50 percent of the votes in a 
six-man race establishes a mandate to govern for Rouhani. As we 
look forward to the possibility of a more open and free society 
with Iran, we must also recognize the reality that Presidential 
power within Iran is only a small portion of the true power 
structure which continues to be led by the Supreme Leader, 
Ayatollah Khameini.
    Rouhani has been described as a reformer who ran on a 
platform of restoring pride for the Iranian people, and their 
government, and economy. Previous to his election, however, 
Rouhani served as the lead negotiator for Iran from 2003 to 
2005. He was seen as diplomatic, but his concessions to the 
West in proposing a suspension of Iran's nuclear program 
ultimately got him removed by then President Ahmadinejad.
    This lesson was well ingrained in President Rouhani, and 
with a weakened ability to bring substantive change to Iran's 
ongoing nuclear activities in his election, while preferable 
for the Iranian people will not likely yield a productive shift 
from past Iranian policy.
    I look forward to hearing from the panel with their 
thoughts and insights for what, if any, potentially 
transformative policies might be voted for in President 
Rouhani's election.
    Thank you, and I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Meadows of North Carolina.
    Mr. Meadows. Thank you, Madam Chairwoman. I'm happy to have 
the opportunity to hear more about recent elections. Thank you 
for being here, what it means to the people of Iran, and to the 
Middle East as a whole.
    I wish I could say that I was optimistic, that we're going 
to see real change, but from what I've seen so far this is not 
going to be the case. You know, the Supreme Leader is still in 
place. He's still hostile to the U.S. interests, and 
specifically to the continued existence of Israel. And as long 
as the ruling regime remains with no checks on their power it's 
going to be hard to be optimistic about Iran.
    This has been true for years, but it's even more relevant 
as they're currently fighting a proxy war to uphold the Assad 
regime in Syria, so we need to really re-evaluate this. I look 
forward to your testimony, and I'm looking forward to a future 
with a stable and a truly democratic Iran.
    Thank you and I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Vargas of California.
    Mr. Vargas. Thank you very much, Madam Chairman and ranking 
member, and distinguished witnesses for holding this hearing on 
such a timely topic. As we know, the election in Iran last 
Friday resulted in a Presidential victory for Hassan Rouhani 
who has been deemed by a moderate voice among the 
fundamentalist cleric who served the Supreme Leader, Ayatollah 
Khameini.
    As we temper our expectations with the realities of the 
rigged electoral process in Iran, there remains many questions 
moving forward. We must steadfastly maintain our strategic goal 
of preventing Iran from developing a nuclear weapon. Will this 
former head nuclear negotiator provide a space for an 
international deal, or will he continue to be a party to the 
delay and deceit tactics you have seen throughout the years?
    As the Obama administration moves to arms the rebels in 
Syria, will Iran continue to bolster the Assad regime and use 
its proxy for international terrorism. Finally, our greatest 
friend and ally in the region, Israel, has expressed skepticism 
about any potential change of course, and has rightly stated 
that Iran will be judged by the actions, and we will judge them 
by their actions. Thank you very much.
    Ms. Ros-Lehtinen. Thank you, sir.
    Congresswoman Meng from New York.
    Ms. Meng. Thank you, Madam Chairwoman, Ranking Member, and 
our witnesses for being here today.
    We were all surprised by the nature and result of the 
recent election in Iran. The President-elect Hassan Rouhani is 
the most moderate of the candidates selected by the Guardian 
Council, but is in every way, and in every respect a regime 
insider. The Iranian threat is as grave as it was last week, 
and the centrifuges are still spinning.
    But the question here is not so much who Mr. Rouhani is, or 
where he has been, but rather it is where he is going. As we 
saw with the strike 30 years ago, a tinge of freedom, a tinge 
of moderation can yield far more when coupled with popular 
will. I look forward to exploring this possibility today and I 
yield back my time.
    Ms. Ros-Lehtinen. Thank you, Congresswoman.
    Congressman Connolly of Virginia.
    Mr. Connolly. Thank you, Madam Chair, and welcome to the 
panel. I think all of us, obviously, are interested this 
morning in who is the new cleric President of Iran, Rouhani.
    Given his pedigree, he's been referred to as a moderate, 
but he certainly has impeccable credentials from the 
revolutionary point of view, and from the theocratic state 
point of view. So, just how much change can we really expect? 
And how much of a risk is it for us to fall into the trap of 
buying more time for the nuclear development because a moderate 
has been elected to the Presidency once again? So, I think all 
of us are interested in hearing your views about that and 
engaging with you as the United States tries to think through 
its policy in this post-election period.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly.
    Thank you for excellent opening statements from all of our 
members. And now I'm so pleased to introduce our witnesses.
    First, we welcome Mr. Ali Nader, a senior international 
policy analyst at the RAND Corporation and the author of 
``Iran's 2013 President Election, It's Meaning and 
Implications.'' Pretty timely. He has published numerous titles 
on Iran's internal politics, and prior to joining RAND, Mr. 
Nader served as a research analyst at the Center for Naval 
Analysis. Thank you, sir.
    Next we welcome Dr. Suzanne Maloney, a senior fellow at the 
Saban Center for Middle East Policy at the Brookings 
Institution, where her research focuses on Iran and Persian 
Gulf energy. Prior to joining Brookings Institution, Dr. 
Maloney served on the Secretary of State's policy planning 
staff and directed the 2004 Council on Foreign Relations Task 
Force on U.S. Policy toward Iran.
    Next we welcome Mr. Karim Sadjadpour, and because your name 
is a little difficult for me, my staff made sure that your name 
is mentioned in every sentence of your introduction. He's a 
senior associate at the Carnegie Endowment. Prior to this, Mr. 
Sadjadpour was the chief Iran analyst at the International 
Crisis Group. In 2007, Mr. Sadjadpour was named a Young Global 
Leader by Royal Economic Forum in Davos. Mr. Sadjadpour is 
board member of the Banu Foundation, an organization dedicated 
to empowering women worldwide.
    Thank you to our panelists. Without objection, as I said, 
your full prepared statements will be made a part of the 
record, and we will ask you to please summarize it in 5 
minutes. Mr. Nader, we will start with you.

  STATEMENT OF MR. ALIREZA NADER, SENIOR INTERNATIONAL POLICY 
                   ANALYST, RAND CORPORATION

    Mr. Nader. Thank you, Chairman Ros-Lehtinen, ranking member 
Deutch, and members of the subcommittee. Thank for allowing me 
to appear before you today to speak about the Iranian 
Presidential election, and policy options for the United States 
going forward.
    I would like to make three points before offering U.S. 
policy recommendations. First, Hassan Rouhani's election as 
President demonstrates the Iranian people's frustrations and 
deep opposition to their leader's decisions. This election is a 
refusal of the policy of so-called resistance on the nuclear 
program pursued by Supreme Leader Ayatollah Khameini and 
President Mahmoud Ahmadinejad, which has led to Iran's growing 
isolation and its economic devastation.
    Second, the election also showed that U.S. pressure against 
Iran is beginning to pay off. Iran's economic crisis played a 
significant role in Rouhani's election. Iran's continued 
progress with the nuclear program has been very hostile. 
According to Iran's Oil Minister, energy exports have declined 
by 40 percent. The Iranian Government has reported an inflation 
rate of 30 percent, although some economists claim it is much 
higher. Iran's currency, the rial, lost 80 percent of its value 
in 2012 alone. The livelihood of many Iranians, including the 
middle class, is in grave jeopardy. Khamenei and Ahmadinejad's 
policies, especially in the nuclear program, threaten to 
unravel the Islamic Republic. Khamenei could be seeking a way 
out of the crisis and he could be working through Rouhani.
    Third, Rouhani's presidency may provide a better 
opportunity to solve the nuclear crisis through diplomacy. His 
past experience as a capable nuclear negotiator and a moderate 
on foreign policy is encouraging, but not all of Iran's 
policies may change. For example, Iran is unlikely to abandon 
the support for the Syrian regime. Rouhani will, nevertheless, 
have an opportunity to reshape Iran's position on the nuclear 
program, as he will appoint Iran's nuclear negotiator and other 
key figures.
    There's still enough time and space for the U.S. policy of 
sanctions and diplomacy to succeed, but negotiations between 
the P5+1, which is composed of the permanent members of the 
U.N. Security Council in Germany and Iran, could fail if the 
Iranian regime perceives sanctions as being geared toward 
regime implosion and overthrow, rather than a way to achieve a 
diplomatic solution.
    U.S. policy has to be balanced to include not only 
pressures but a dignified way for the regime to compromise. 
This means a cap on Iranian enrichment, intrusive inspections, 
limits on the Army nuclear facilities, and a limited stockpile 
of enriched uranium. In return, the P5+1 would accept Iran's 
declared right to enrich uranium for peaceful purposes and 
would lift the most onerous sanctions.
    Any future sanctions should be specifically designed to 
impact the regime's nuclear calculus. In addition, they should 
be reversible in the event of a nuclear deal between Iran and 
the P5+1. This means that this should not be defined by issues 
related to human rights or Iran's regional behavior. Moreover, 
the United States should have the freedom to issue waivers when 
necessary for third-party countries regarding their compliance 
with sanctions. This allows Washington to maintain the 
impressive International Coalition which has isolated the 
Iranian regime.
    It is important that future sanctions target the regime as 
much as possible. Sanctions have so far hurt the regime but 
they have also caused suffering among the Iranian people. The 
United States should seek more creative ways in targeting the 
regime. Recent U.S. Treasury sanctions against Khamenei's 
business empire are to be commended in this regard. 
Furthermore, the United States must ensure that sanctions do 
not lead to a shortage of food and medicine in Iran. This would 
be used as a propaganda tool by the regime and could erode 
Iran's goodwill toward the United States.
    While sanctions should not be tied to human rights, the 
United States and its allies must be more vigorous in 
highlighting Iran's human rights abuses while opening better 
channels of communication with the Iranian people.
    This election has demonstrated that the Islamic Republic, 
although authoritarian, is responsive to pressure. Washington 
should engage Rouhani before it pursues additional sanctions. 
If the regime does not respond, then it will be met with a 
great deal of pressure.
    The future of Iran is impossible to predict but time is on 
the side of the United States and the Iranian people. The 
United States still has the opportunity to resolve the nuclear 
impasse diplomatically while it helps the Iranian people 
realize a better future for their country.
    Again, Chairwoman Ros-Lehtinen, Ranking Member Deutch, and 
members of the subcommittee, thank you for allowing me to speak 
to you about this important issue. I look forward to your 
questions.
    [The prepared statement of Mr. Nader follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, sir.
    Dr. Maloney.

 STATEMENT OF SUZANNE MALONEY, PH.D., SENIOR FELLOW, THE SABAN 
      CENTER FOR MIDDLE EAST POLICY, BROOKINGS INSTITUTION

    Ms. Maloney. Chairman Ros-Lehtinen, Ranking Member Deutch, 
and members of the subcommittee, I'm very grateful for the 
opportunity to appear today to discuss the recently concluded 
Iranian Presidential election with you.
    Obviously, Iran is at the forefront of all of our security 
interests. This election does not change any of those interests 
or any of our concerns about Iranian behavior, but it does 
offer the possibility of new momentum in addressing them.
    In my testimony, I will highlight the importance of 
election to the office of the presidency, speak for a few 
moments about why it is we think Rouhani won, and why it is he 
was allowed to win. And then conclude with a few remarks about 
U.S. policy moving forward.
    Many even in this room have dismissed the irrelevance of 
Iranian electoral processes and institutions. I fully 
understand why, and yet I respectfully disagree. In fact, it's 
a misreading of Iran's complicated domestic dynamics to dismiss 
its elections or its representative institutions as mere window 
dressing.
    Elections, even ones that are highly orchestrated as the 
ones in the Islamic Republic are, represent critical junctures 
in the life cycle of political systems. In Iran, they have 
repeatedly sent the revolutionary system careening in new 
directions.
    The election that just concluded in Iran reinforced the 
subversive utility of semi-democratic institutions even in 
authoritarian systems. Iran's elections matter because they 
provide openings for candidates to challenge the official 
narrative, as we heard time and time again in this campaign on 
the nuclear issue.
    They matter because they enable journalists and crowds of 
people to come and speak about issues that have been off limits 
for public debate for many years, including the arrest and 
detention of the two candidates from the 2009 election.
    Elections release genies from bottles, as one of the 
foremost Iranian dissents has said. We also know that the 
presidency matters. If nothing else, we have learned from the 
past 8 years about Mahmoud Ahmadinejad is that Iran's 
presidency is important to the way its policy is conducted. The 
President controls budgets and institutions. More importantly, 
he controls the context for Iran's internal domestic politics, 
but also for its relationships with the word. We would not have 
the sanctions regime that we have today were it not for Mahmoud 
Ahmadinejad.
    Let me just say a few words about why it is I think Rouhani 
won. First, he ran a very smart campaign. He appealed to 
Iranian young people. He pushed the bounds on the nuclear issue 
in a way that no one really anticipated, and he created the 
opportunity for, in fact, conservatives to pile on to this 
particular issue in an amazing televised public debate that was 
on state television for 4\1/2\ hours in which all of the 
candidates effectively said what we're doing now is not 
working. We need a deal. We have never, in fact, heard anything 
like this from the Islamic Republic before.
    Rouhani, in fact, managed to do what the reformists have 
been trying to do in Iran for more than a decade, which is to 
create a coalition that can actually advance their interest. 
They did this by banding together with centrists, with 
pragmatists, with conservatives. Really, Rouhani is not a 
reformist by any stretch of the imagination. He's very much a 
pragmatic conservative, and his election represents a new 
alliance, a new political force in Iran.
    He also benefitted from conservative disarray. None of this 
really explains, however, why it is that Khamenei let him win. 
I think many people, and certainly the prevailing narrative in 
the press is that this was just an explosion, and Iranians once 
again told their leaders something they didn't want to hear.
    I think that's quite possible, and certainly the role of 
the Iranian people and their unhappiness about their horrendous 
economic conditions is very important, but I think there's also 
an argument to be made, and I can sketch it out in greater 
depth during the discussion period that, in fact, the regime is 
looking for a way out of the box that it's in. And, in fact, 
what they've done is what they did toward the end of the Iran-
Iraq War which is to try to empower a fixer, someone who can 
get them out of a very dire situation.
    For the U.S., this is an opportunity, but also one that 
offers no easy path forward. We see confirmation, as Ali has 
just said, that the U.S. strategy is working to a point. The 
point of a dual track policy that we've had in place for many 
years now has been to create the political will for a deal on 
the nuclear issue, and we know that that exists. That's huge, 
and it's a tremendous opportunity.
    Of course, Rouhani's election will inevitably lead to 
sanctions erosion and other challenges for U.S. policy. We have 
to be prepared that the United States will negotiate seriously, 
that we can offer tangible rewards in exchange for confirmed 
overtures from the Iranians, and specific concessions on the 
nuclear program.
    Congress' role in this moment of opportunity is extremely 
important. For Washington to greet the empowerment of the first 
serious moderate, someone who has an apparent mandate to make a 
deal on the nuclear issue with a new raft of sanctions would be 
a disaster.
    U.S. policy makers should appreciate that Rouhani will 
experience real constraints. He doesn't have an easy path 
forward, but this is someone who's been dubbed the sheik of 
diplomacy. He may just be the right man to do the deal we've 
been waiting for.
    I appreciate the opportunity to appear before you today, 
and I look forward to the discussion. Thank you.
    [The prepared statement of Ms. Maloney follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Dr. Maloney.
    Mr. Sadjadpour.

  STATEMENT OF MR. KARIM SADJADPOUR, SENIOR ASSOCIATE, MIDDLE 
    EAST PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Sadjadpour. Thank you, Chairman Ros-Lehtinen, and 
members of the subcommittee.
    I think the election of Hassan Rouhani was another 
important and humble reminder that there are no experts on 
Iranian politics, only students of Iranian politics. And it was 
another reminder that Presidential elections in Iran tend to be 
unfree, unfair, and unpredictable, as Representative Deutch can 
attest by my briefing before the election.
    I think what was most surprising about Hassan Rouhani's 
victory wasn't that he received the most votes. He was the lone 
``moderate''candidate on a ballot which was amongst five 
hardline representatives of the government. But what was most 
surprising, as Suzanne mentioned, was that he was allowed to 
win. And I think, as many of you have said here today, 
Rouhani's victory I think can be better interpreted as a 
reflection of the tremendous popular discontent in Iran rather 
than a deep-seated affection for the candidate of Hassan 
Rouhani himself.
    We did see after the election that Iranians reacted 
jubilantly, and I would describe this as the equivalent of a 
population experiencing a light rain after 8 years of drought. 
When you do live in Iran, it makes a difference who your 
President is. During the era of Mohammad Khatami, it was a 
country which was more politically and socially tolerant. There 
was a much better economy than under Ahmadinejad, so from the 
vantage point of Iranian citizens it does make a difference who 
their President is. But as everyone has said here today, Hassan 
Rouhani is no Nelson Mandela. He's not even Mohammad Khatami. 
He's someone who's not committed to reforming the system. He is 
a consonant regime insider who is committed to the preservation 
of the Islamic Republic, but I think there is an important 
caveat here, which is that Rouhani comes from the tradition in 
Iran of the pragmatic conservatives who, again, are deeply 
committed to the revolution, to the maintenance of the Islamic 
Republic, but they believe that in order to preserve the 
regime, Iran needs to privilege economic expediency over 
revolutionary ideology. And I think this will probably put him 
in contrast to the Supreme Leader, Ayatollah Khameini, who has 
long believed that compromising on revolutionary principles 
would actually--could possibly unravel the system rather than 
strengthen it.
    Let me move to a couple of thoughts on U.S. policy. I think 
the discussion on U.S. policy toward Iran is nicely framed by 
two quotes from Henry Kissinger, who said, ``There are few 
nations in the world with whom the United States has more 
common interests and less reason to quarrel than Iran, but Iran 
has to decide whether it's a nation or a cause.'' And I think 
under a Rouhani presidency, as much as there is a popular 
desire for change in Iran, when it comes to the strategic 
principles of the Islamic Republic, namely, resistance toward 
the United States and toward Israel, Rouhani's will or ability 
to change those principles is very unclear.
    But I will say one thing about Iran, and that is that Iran 
is one of the very few, if only, countries in the Middle East 
in which America's strategic interest and its democratic values 
align rather than clash. If you look at a lot of the other 
countries in the Middle East, particularly in the Arab world, 
more representative systems in those countries actually produce 
less tolerant governments, and governments which are less 
sympathetic to the United States. And I think that is the 
exception in Iran, and for that reason I think it's imperative 
for us to think more creatively about ways to facilitate 
political change in Iran beyond just sanctions.
    And I would argue that the single most important thing the 
United States can do to facilitate genuine political change in 
Iran is to inhibit the Iranian regime's ability to control 
information and communication. And in this context, I think one 
thing which is absolutely critical, which we haven't fully 
taken advantage of is our Voice of America Persian News 
Network. This is something which has the potential to reach 25-
30 million Iranians, but it's woefully underperforming. It 
doesn't have nearly the popularity or the professionalism as 
the BBC Persian Television Service which played an integral 
role in these elections. So, I think that if there's one thing 
Congress can do, it's to spearhead the reform and the 
privatization of Voice of America's Persian News Network. Thank 
you.
    [The prepared statement of Mr. Sadjadpour follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, excellent testimony 
by all of you.
    It is my pleasure before I begin my questioning to 
recognize the Delegation of Women Parliamentarians that we have 
to our right. They're from Kyrgyzstan, Georgia, Kenya, and 
Mongolia. They are here to learn of our democracy and they're 
touring Capitol Hill today to observe several hearings. I had 
the pleasure of speaking to them yesterday afternoon, and they 
asked very interesting questions about our democratic process, 
such as it is. So, thank you so much. Let's give them all a 
welcome. Thank you, ladies.
    I want to touch on the role of the President and the 
office's relationship with the Supreme Leader. The power of the 
Supreme Leader greatly outweighs that of the Office of the 
President. The Supreme Leader controls the military, the media, 
and the judicial branch. Over time, the Supreme Leader has 
exerted even more influence and control over the most powerful 
institutions in Iran by directly appointing their leaders to 
institutions like the Guardian Council, the Revolutionary 
Guards, and it is the Supreme Leader who has the final say in 
virtually every decision that impacts Iran's nuclear program, 
Iran's involvement in Syria, any other important foreign policy 
decision. So, when we look at the election of Rouhani, I see a 
man who was selected by an entity controlled by Khamenei, and I 
see a man who has been part of the Islamic regime in Iran since 
its beginning.
    So, I ask knowing what we know about the power structure in 
Iran, and Rouhani's background as a regime loyalist who was 
handpicked to run by the regime, what should we expect from him 
to be able to implement democratic reforms, let's say, or bring 
an end to human rights abuses, discrimination against women, 
against ethnic and religious minorities, and does he view the 
U.S.-Israel relationship with the same contempt as Khamenei, 
and will he continue to spread terror across the region through 
Hezbollah?
    And to revisit the hope and optimism theme, for decades now 
every time there's an election in Iran we heard that Iran is on 
the cusp of change, that reforms are on their way, but hope 
fades and we see a resurgent regime further cemented into 
power. Can we expect that this time it will be different?
    And then, lastly, where's Ahmadinejad? What role will he 
play? Is he an outcast? Will he have a role to play even if, or 
is it an empty office? Mr. Nader.
    Mr. Nader. I think that's the key question, how much power 
will Rouhani have, how much leeway will Khamenei give him. It's 
true that Rouhani is not a reformer. We can't expect major 
changes in Iran under his presidency. We can expect an 
improvement in human rights, necessarily, or an improvement 
really in social freedoms, maybe slightly. However, his goal is 
not to really change Iran domestically as much as it is to 
alleviate Iran's external pressure.
    Ayatollah Khameini, of course, is the Supreme Leader, the 
Supreme Authority in Iran. The Revolutionary Guards are very 
powerful. Both institutions are largely unelected, and largely 
unaccountable, but I think it's interesting that Rouhani was 
allowed to win. He is a regime insider. He is a Supreme 
Leader's representative on the National Security Council, but 
Rouhani provides an opportunity for Khamenei to exit the crisis 
that Iran is facing currently.
    Ms. Ros-Lehtinen. Let me just interrupt you to give the 
others a chance. Dr. Maloney, and Mr. Sadjadpour.
    Ms. Maloney. Very quickly, I think Rouhani has been elected 
to run the National Unity Government. His priority will be very 
much on the economy, which effectively means getting a nuclear 
deal. It's ironic because this is the one issue on which he's 
been vilified by hardliners for a decade, and yet I think this 
is his mandate. It means he will be very cautious about 
touching other issues, like Syria, certainly, like anything to 
do with Iran's support for terrorism.
    Ms. Ros-Lehtinen. So, he will concentrate on the nuclear 
program because that's been looked upon as his weak part.
    Ms. Maloney. He will concentrate on it because it's the 
only way he can solve the economic problems of the country. He 
will also have, I think, an onus on him to do something in 
terms of his promises to release political prisoners, and 
specific to that Mousavi and Karroubi, the two candidates from 
2009.
    Ms. Ros-Lehtinen. Yes. Thank you.
    Mr. Sadjadpour. One interesting tidbit about Rouhani is 
when you look at his nuclear team when he was Chief Nuclear 
Negotiator, there was three men, Javad Zarif, Hossein 
Mousavian, and a guy called Cyrus Nasseri. All of them were US-
educated. They all came from merchant backgrounds, not 
ideological backgrounds, so these folks when you speak to them 
privately, they're not death to America rigid ideologues. I 
think they're interested in Iran, which again pursues economic 
interests and ideological interests always, but they're 
certainly not interested in genuine democracy and opening up 
the system because I think they understand that that would be a 
threat to their interest.
    Ms. Ros-Lehtinen. Thank you. And Ahmadinejad, where will he 
be relegated to?
    Mr. Nader. Hopefully, he will have no role in Iran in the 
future. Ahmadinejad made a lot of enemies, so he has to be very 
careful what he does from now on.
    Ms. Ros-Lehtinen. Good. Dr. Maloney?
    Ms. Maloney. He's already been called before the court, and 
will have probably a difficult time either staying out of 
prison, or finding some new post in the Islamic Republic. He's 
persona non grata.
    Ms. Ros-Lehtinen. Wonderful. Thank you very much.
    Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman.
    I also want to thank the witnesses for really enlightening 
testimony. And I extend my welcome to the visiting delegation, 
as well. It's wonderful to have you here.
    Less than a week ago it seemed that most Iran analysts 
believed the Supreme Leader would cement his control over the 
system by rigging the election to ensure that a compliant 
conservative like Jalili would become the President. Yet, days 
before the election he gave a speech encouraging even those who 
do not support the Islamic system to vote in the election. And 
it now appears that the Supreme Leader made the calculated 
decision to acquiesce to the will of the Iranian people.
    Dr. Maloney, you talked about empowering a fixer. That may 
be the case and, if so, I'd ask why he did this? But just to go 
on, I'm not sure if it's a reaction to not wanting to further 
upset a young and volatile electorate like he did in 2009, or--
and I'd like all of you to chime in on this, is the Supreme 
Leader--is there a possibility that the Supreme Leader is not 
empowering a President who can come in and do a deal, but the 
Supreme Leader, instead, seeks to undermine the United 
International Coalition against Iran's nuclear program that 
currently exists.
    For instance, Mr. Nader spoke about putting a--what a deal 
would look like with a cap on enrichment, and a limited 
stockpile of enriched uranium, and intrusive inspections, but 
now that we have a moderate President no longer spewing 
bellicose statements like Ahmadinejad did, will countries like 
Russia and China, for example, be willing to accept a deal 
under Rouhani that we wouldn't accept under Ahmadinejad?
    So, what if they offer less, but it comes without the venom 
that came with Ahmadinejad? What if they offer to minimize 
their stockpile of 20 percent enriched uranium, but they don't 
have the rigorous inspections, and the safeguards that would 
stop their long-term nuclear weapons development? Would a deal 
like that potentially split the P5+1 unity due to negotiations 
fatigue and this sense of relief that we have that no one has 
to deal with Ahmadinejad any longer?
    Let's start with that. Dr. Maloney, I'll start with you.
    Ms. Maloney. I think we should have no illusions about 
Rouhani's level of flexibility, or his degree of authority on 
this issue. But I think it's notable that he published a memoir 
which created a sensation within Iran and a number of people in 
this town and others have read it, in which he revealed an 
enormous amount of information and self-criticism about Iran's 
approach to the nuclear issue.
    So, for that reason, I don't think he's there as a patsy or 
a dupe, but I also think he will not drive any easy bargain. 
I've spoken to the Europeans who dealt with him when he was in 
charge of this brief, and they found him quite frustrating. 
They didn't enjoy the experience of negotiating across the 
table from him.
    But I think Iran today is in a very different set of 
circumstances than it was in 2003 when the leadership was 
watching U.S. moves in Iraq. The economy, as Ali and Karim have 
both indicated has suffered grievously as a result of the 
sanctions. And I think it's quite clear that they are looking 
for some mechanism that won't just erode the compliance with 
sanctions, because that's insufficient. What they really need 
is the relaxation and specific removal of sanctions.
    Mr. Deutch. All right. But, Mr. Sadjadpour, is there a 
possibility that they could get that by giving up less given 
who the spokesperson is now with a negotiating partner?
    Mr. Sadjadpour. That's certainly plausible in that at the 
moment, I've noticed just in the last few days there have 
already been statements from Russian, Chinese, and European 
officials, former--current European Foreign Ministers saying we 
now need to engage Iran. So, the role Ahmadinejad played in 
uniting the international community against Iran, Rouhani is 
now creating potential fissures.
    That said, I think that it's going to be difficult for the 
P5+1 to offer meaningful concessions, and for the U.S. and 
Europeans to offer meaningful concessions if Iran isn't going 
to make meaningful nuclear compromises.
    Mr. Deutch. Mr. Nader, you laid out what you think a deal 
might look like. Do you think that the Russians and Chinese, 
for example, might take less given the new President?
    Mr. Nader. I don't think they'll necessarily take less. We 
have to remember when Hassan Rouhani was National Security 
Advisor, Iran stopped uranium enrichment. And when Ahmadinejad 
became President in 2005, that was reversed. Now, Rouhani in 
his press conference yesterday said that those days are gone. 
We're not going to stop uranium enrichment, but I think there's 
potential to cap the Iranian enrichment program so they don't 
go up to 20 percent, they don't amass their stockpile. And I 
think this is something that is acceptable to the P5+1. And 
sanctions are going to continue no matter what, even if the 
Chinese and the Russians think Rouhani is more moderate.
    Mr. Deutch. Thanks. Madam Chairman.
    I would--I'd just close by referring back to what Mr. Nader 
said at the beginning, that U.S. pressure is really just 
beginning to pay off, and we shouldn't be willing to let up on 
the pressure because there is someone who is less belligerent, 
saying being less bellicose. I think it's an important thing 
for all of us to remember. I thank the witnesses, and thank 
you.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Madam Chair. And I want to also 
thank Mr. Deutch for those comments. I think they were good. 
And I kind of want to pick up on that, but first I want to say 
to the visiting delegation, I also add a thanks. I've been to 
Georgia many times, and I was stationed in Kyrgyzstan with the 
military at Manas Air Base, so thank you for being hear and for 
your hospitality. And to the other two nations represented, 
hopefully we can come and visit you also some day, so thank 
you. And continue to press forward on your march toward 
freedom, we encourage you.
    In terms of the actual specific issue of Iran, Mr. Nader, 
I'm not sure I'm saying it right, I want to make sure I fully 
understood what you were saying. So, you're advocating for, and 
I'm not arguing with you. I'm curious because you're advocating 
for basically allowing Iran to go nuclear, but capping the 
level of enrichment to allow them to have a peaceful nuclear 
process.
    Now, let's say, and I'm not a technical nuclear guy, but 
let's say we cap them at 20 percent, or whatever, how quickly 
could that be reversed? So, if they agree to inspections, they 
agree to the cap, how quickly at the point our relationship 
falls apart again, or whatever, can they either secretly or 
openly get to highly enriched uranium where they can marry it 
with a bomb? Let me just ask you that question.
    Mr. Nader. I don't advocate they go nuclear. We should make 
all efforts to stop Iran's development of a nuclear weapons 
capability. But the Supreme Leader has supposedly issued a 
religious ruling or fatwa stating that Iran does not want 
nuclear weapons, so let's let Iran operationalize that. Let's 
just have them limit uranium enrichment to 5 percent, because 
they have to go to 20 percent and then higher to develop a 
nuclear weapon.
    Mr. Kinzinger. But then how long does that--and you may not 
be a technical nuclear guy. How long does the 5-20 percent 
take?
    Mr. Nader. Well, Iran is under IAEA inspection, so anything 
they do is going to be monitored. And the goal is to make 
inspections even more intrusive, to have Iran open up some of 
the suspected nuclear sites to inspection.
    And Hassan Rouhani has said that he wants to be more 
transparent on the nuclear program. Let's give him a chance. If 
Iran does not want to be more transparent, then we impose 
additional sanctions and increase pressures on Iran.
    Mr. Kinzinger. I know where you're coming from. My only 
concern is, again, and as I mentioned in my opening statement, 
if this was 10 years ago, I think we'd have the pleasure of 
time to be able to say well, we can give it a couple of years 
and see if he's legitimate. But I really, personally, from all 
I've heard, we actually are up against Iran becoming a nuclear 
state. So, unfortunately, and I wish we did; unfortunately, I 
don't know if we have the luxury of being able to see how this 
develops, and how this kind of rounds out.
    A concern I have, too, and again I want to encourage, I 
don't want the feeling to be from this committee, and I don't 
think this committee has given it yet, but I don't want the 
feeling to be hey, to the people of Iran we don't trust you, we 
don't believe that you really did what you went out to do, 
which is elect a moderate. But, obviously, you can understand 
our concern because of the wall that we're up against, and what 
I saw in 2009.
    Now, I don't want to make this an attack on the 
administration today, but I will say I do believe that America 
lost a really big opportunity in 2009 for a serious uprising, 
and I'm afraid I don't want to do that here, as well.
    But let me ask another question. If we do find ourselves in 
this position of we are now facing a nuclear Iran, you know, 
let's say it comes to be, whatever the fall is, or something 
like that, and this guy is in power. And I want to ask all 
three of you, what is preferable, to let this guy--to trust him 
enough to let him take Iran to a position where he wants to 
negotiate with the West, or to press forward on i.e., military 
strikes to ensure that Iran does not become nuclear? So, you're 
kind of faced with we've got this guy in power, but on the 
other hand we believe that they're going to go nuclear. We'll 
start with Mr. Sadjadpour. I hope I said that right.
    Mr. Sadjadpour. I will just say that what I would argue 
Iran is doing with the nuclear program is just taking a very 
incremental approach. They're simultaneously putting their foot 
on the gas and on the brakes, meaning they're expanding the 
number of centrifuges, they're expanding the sophistication of 
the centrifuges, but they're at the same time taking that 
stockpile of low enriched uranium and converting it to fuel 
rods which has been allaying some of the concerns of the 
Israelis.
    And I would simply argue that trying to dialogue and engage 
with this new Rouhani government, in my opinion is a win-win. 
If we're able to make forward progress, we reach some type of 
detente, that's a win. If we don't, we expose them as the 
problem.
    Mr. Kinzinger. Dr. Maloney.
    Ms. Maloney. I don't think Rouhani changes the position of 
any of us, or anyone in this town that we do not want Iran to 
have access to a nuclear weapon. What he does do is potentially 
provide the opportunity for a deal that is mutually tolerable.
    We believe it will exist for that within the Iranian 
political establishment today. I know that it exists within the 
administration, and within this building.
    Mr. Kinzinger. Well, thank you. And my time is expired, but 
I just want to say look, I hope this works out to be something, 
trust me. It would be nice to have this situation off the 
world's table.
    A military strike, as an example, against Iran would be 
terrible, but a nuclear Iran would be even worse. So, these 
are--hopefully, this is maybe a miracle in the Middle East, but 
we'll see. I yield back.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chairman. Thank you to the 
witnesses for your testimony.
    If, in fact, it's the case that Rouhani was allowed to win 
in part because the Iranian people would not have reacted well 
to a more conservative candidate, that the outpouring would 
have been so strong, it seems to me we have two possible 
narratives. One is, the Supreme Leader is actually trying to 
get Iran out of this box. And one has to ask well, if that were 
the case, couldn't the Supreme Leader have done that directly, 
which would have been consistent with what Iranian people want, 
which would seem to be a really good path?
    So, instead, is it more likely that what the Supreme Leader 
is attempting to do by allowing Rouhani to win is provide this 
safety valve so the people sort of are calmed down, and then to 
my friend, Congressman Deutch's point, to create an opportunity 
to really destabilize the international coalition that has 
really very strongly held together in the face of Iran's 
nuclear program. And doesn't that, in fact, put us in a very 
difficult position in terms of balancing both this opportunity, 
but at the same time safeguarding against this sort of 
opportunity that the Supreme Leader now has to dissipate some 
of the strength of the international coalition, and to continue 
full speed ahead with the nuclear program?
    If that analysis is reasonable, what is the best way for us 
to respond? What are the best ways to sort of understand what 
the true motivation is? I invite all of you.
    Mr. Nader. I think Khamenei wants to save face, and he 
couldn't compromise as long as Ahmadinejad was President, 
because in 2009 he strongly supported Ahmadinejad, and he's 
been saying for the last 8 years, Ahmadinejad's policies are 
correct. Ahmadinejad turned out to be disastrous for him, and 
this was embarrassing for him.
    So, this provides an opportunity to make some of these key 
decisions with Rouhani as President. If the Rouhani experiment 
fails, Khamenei can say well, it wasn't me, it was Rouhani.
    In terms of the P5+1, I just don't think a Rouhani 
presidency will weaken the coalition, because the sanctions 
right now are not going to be reversed until Iran makes a move 
to build confidence among the international community. Even the 
Russians and Chinese, I think, are aware of this.
    Ms. Maloney. I think that your analysis is absolutely 
reasonable, but I do think that Khamenei took a big risk, if 
that's what he did, because the safety valve of Rouhani risked 
putting people out in the streets in a way that they were in 
2009, which is something that clearly Khamenei and the 
hardliners deeply, deeply fear. These young people shouting 
with joy, dancing around a particular color even was something 
that played into his own paranoia about a soft revolution 
sponsored from the outside.
    But I think you're absolutely right to sort of believe that 
any possibilities are accurate right now in terms of the 
interpretation. And in terms of how it is we avoid getting 
sucked into an Iranian ploy, I think as actually both fellow 
panelists have suggested, the best way to do that is to ensure 
that we continue to approach the negotiations with full 
seriousness, that we are prepared to meet the Iranians, any 
concessions from the Iranians with meaningful incentives for 
continuing and confirming those concessions.
    And as Karim says if, in fact, this is not serious, then 
we'll surely know that, and we will strengthen the coalition. 
If it is, then we may find a way to at least turn down some of 
the urgency with respect to the nuclear concerns.
    Mr. Sadjadpour. Well, the word ``cementing'' is in the 
title of the panel today, and I think cemented is a good 
adjective for the sanctions. It's going to be very tough to 
remove U.S. Congressional sanctions, even the European oil 
embargo, so I think we shouldn't be too worried that the entire 
sanctions regime is going to suddenly fall apart just with 
Hassan Rouhani.
    With regards to the Supreme Leader's calculations, I 
sometimes think we confer on them too much strategic planning 
and Machiavellian brilliance than oftentimes is the case. I 
would say in this case it was simply a lot of ad-hocery, and he 
probably didn't know that morning who was going to be 
President.
    But I would argue this, is that I actually think that 
Khamenei's image, his tattered image has been rehabilitated in 
a way that many of us didn't anticipate; meaning, I think he's 
far more popular now with the Iranian people than he was on 
June 13th, 2013.
    Mr. Cicilline. I think it just makes the point that the 
sanctions that we've imposed are--or the international 
community has imposed with us are working, and we should just 
remain very cognizant of that as we move forward.
    Again, thank you for the testimony. I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Cicilline.
    Mr. Meadows is recognized.
    Mr. Meadows. Thank you, Madam Chair.
    Mr. Nader, I notice that you kind of gave the back and 
forth when you said his tattered reputation was perhaps 
reinvigorated, so I'd like you to go ahead and make your 
comments in a verbal manner, so I can follow-up on that.
    Mr. Nader. With all due respect to Karim, who I think is a 
great analyst and is a friend, I think the Islamic Republic 
does not have a good reputation in Iran. I think the days of 
the Islamic Republic are numbered. I think that as long as 
Khamenei is alive we won't see major change in Iran, but when 
he passes away there'll be an opportunity to have a better 
Iran, a more democratic Iran. And we have to keep in mind that 
Rouhani was not elected because Iranians love him, as Karim 
said, but because they're desperate, because the regime----
    Mr. Meadows. And they're desperate because of the economic 
conditions. Right?
    Mr. Nader. Because of the economy, because of inflation, 
because of unemployment, because of lack of social freedom, 
prostitution, drug use. I mean, this regime is destroying Iran 
and its people realize it, and they seek a way out. And that 
was the only option available to them, to vote for Rouhani.
    Mr. Meadows. Dr. Maloney?
    Ms. Maloney. I can't gauge the current popularity of 
Ayatollah Khameini. I never found him to be all that well liked 
when I had the opportunity to visit Iran.
    I do think that this is a boost for the regime and, 
obviously, that makes our strategy now more complicated. But, 
clearly, Iranians want a way out that does not involve 
disruptive change. They're not prepared to risk their lives on 
the street today for good reason. They know that they will be 
shot, thrown in jail, forced to leave the country and leave all 
their possessions and family behind. They want to find a 
moderate way, a sort of way to get out of this terrible set of 
circumstances that they're in through gradual change.
    Mr. Meadows. So, a peaceful coup. Is that what you're 
suggesting?
    Ms. Maloney. I think that would be the best possible 
outcome to what we've seen. I don't think it is the inevitable 
outcome to what we've seen.
    Mr. Meadows. Okay. But in your opening testimony, you were 
very positive, or at least more optimistic than most of the 
opening statements up here, so what would you say are the two 
bright spots that you see in this election that we can 
celebrate with the Iranian people?
    Ms. Maloney. The most important part of this election 
actually wasn't the election itself, it was the debate that 
took place a week before the ballot in which conservatives from 
across the board pounced on the nuclear negotiator and attacked 
the current strategy, and the failure to have gotten a deal 
from the international community in the series of negotiations 
that have taken place.
    That, to me, was the most important. The other most 
important element is the fact that Iranians had the opportunity 
to carry through the messages they've been trying to get out 
since 2009, and have been too repressed to do, which is to go 
to the street, demand the freedom of political prisoners, 
demand opportunities to engage with the world, and actually 
celebrate the possibility of some optimism going forward.
    Mr. Meadows. So, what--and this final question is to each 
one of you. So, what benchmarks do we put in place where we say 
okay, well, these benchmarks have been met, so sanctions can be 
lessened or weakened, acknowledge progress here, and this is--
what would be those benchmarks?
    Mr. Nader. If I can go first, that Iran has an entirely 
peaceful nuclear program, uranium enrichment is capped, that 
Iran is----
    Mr. Meadows. That's verifiable?
    Mr. Nader [continuing]. Subject to vigorous inspections and 
it's verifiable, and Iran cannot move toward a nuclear weapons 
capability.
    Mr. Meadows. Okay. Dr. Maloney?
    Ms. Maloney. I would characterize it very similarly. I 
think there's a deal to be had that involves all of those 
elements, that provides greater transparency and reliability, 
that our ability to foresee Iran's efforts to jump toward a 
nuclear weapon, but I think that we also have to be gauging 
what's happening within the country, as well. I don't think we 
can simply disregard the political and social circumstances 
within the country.
    Mr. Sadjadpour. I just want to make clear that I'm not 
trying to paint Ayatollah Khameini as a positive, as a popular 
guy.
    Mr. Meadows. I understand.
    Mr. Sadjadpour. And I think the fact that the candidates 
aligned with him showed so poorly in the election is a 
reflection of that. But I'm simply arguing he's more popular 
now than he was before.
    With regards to prospects for political change in Iran, I 
simply say that in 1979, Iranians experienced a revolution 
without democracy, and I think today they aspire for democracy 
without a revolution. There's not the same stomach to do what 
the Syrians are doing.
    Mr. Meadows. So, do any of you see realistically their 
withdrawal of supporting Hezbollah in Syria?
    Mr. Sadjadpour. I would say no, as long as Ayatollah 
Khameini remains Supreme Leader, the rejection of Israel's 
existence, support for groups like Hezbollah and Islamic Jihad 
and resistance against the United States, I would argue aren't 
going to change.
    Mr. Nader. If I can just add, I agree. I think the Islamic 
Republic will always oppose Israel, but I think Rouhani is 
going to be less ideological than Ahmadinejad. In his press 
conference he referred to Israel as ``Israel'' instead of the 
``Zionist entity.'' It's a very small gesture but it's 
something. Does it show he's a true moderate? No, you know, a 
true moderate would acknowledge Israel, but when you compare 
him to the rest, he's a tad better, and I think that's just a 
little room for cautious optimism.
    Mr. Meadows. I appreciate the patience of the chair. I 
yield back.
    Ms. Ros-Lehtinen. Excellent question. Thanks, Mr. Meadows.
    Mr. Schneider of Illinois.
    Mr. Schneider. Thank you, Madam Chair. And let me just take 
this initial moment to welcome the Women Parliamentarians. It 
is an honor to have you here. We are glad you're here.
    Witnesses, thank you for your testimony. We are clearly at 
a moment of uncertainty as we watch the dust settle.
    Dr. Maloney, you mentioned the relevance of elections, and 
the importance of even a semi-democratic process in an 
authoritarian context. I wonder if you could touch on a little 
bit any of whatever meaning there was in the turnout for the 
election, and the fact that Mr. Rouhani was able to win on the 
first ballot?
    Ms. Maloney. I think this was huge. If I were an Iranian 
and I had been through what they had been through in 2009 when 
the vote was blatantly rigged, and when the protestors who came 
out and demanded to know where their vote was were brutally 
repressed, I don't think I would have had the stomach to go to 
the polls; particularly after much of the hype surrounding the 
rejection of the candidacy of Ayatollah Hashemi Rafsanjani, who 
was seen as the primary moderate. So, I think it is a 
tremendous testament to the faith of the Iranian people, their 
willingness to invest in highly imperfect institutions, and 
their willingness to continue to hope even in a situation that 
doesn't provide a lot of hope.
    The fact that Rouhani won on the first ballot was also a 
big surprise. It's always hard to tell where the political 
winds are going within Iran. And, of course, the social media 
buzz in the run up to the ballot was very much favorable toward 
Rouhani. But, of course, that was the case back in 2009, and we 
didn't see the same outcome. So, part of this goes to the 
disarray among the conservatives, their inability to unite 
behind a single candidate. And there I think we should remember 
that nearly--at least 49 percent of the Iranian people voted 
for someone who was moderately to expressly hardline. And that 
should be a reminder of some of the constraints that we face.
    Mr. Schneider. Thank you. And that's a good lead into my 
next question. Is there any reason to think that the change in 
President should affect our calculus, as we said earlier, 
change in benchmarks of our decisions, when to strengthen 
sanctions or conversely looking for changes where we might 
lessen or pull back on sanctions?
    Ms. Maloney. I'll say just briefly, I think that, you know, 
the next step should be at the negotiating table. It should not 
be in this building, because I think if there's intensification 
of sanctions, Iranians themselves will read it as directed 
against their own action, and they, I will tell you, do not 
appreciate the sanctions.
    But, in fact, our benchmarks shouldn't change, but we can 
expect and hope, I think, to see a more serious set of 
negotiators, as Karim described, the people who were with 
Rouhani when he was handling the file 10 years ago. And I think 
we should be prepared to do more than offer the sort of spare 
parts for aircrafts that has been kicking around now for a 
couple of decades. We should be prepared to give meaningful 
sanctions relief in exchange for meaningful concessions on the 
nuclear issue.
    Mr. Schneider. Mr. Sadjadpour?
    Mr. Sadjadpour. I would agree with that, and I would simply 
say that for the Supreme Leader, I would argue rapprochement or 
better relationship with the United States is inimical to his 
interests, so when we actually make efforts to try to engage 
Iran and he rebuffs us, I think it makes him look very bad in 
the eyes of his people who desperately do want to emerge from 
isolation, and the rest of the international community.
    Mr. Schneider. And yet, Mr. Nader, you mentioned his press 
conference yesterday. In his press conference in referring to 
the nuclear enrichment program, and I'll quote him, he said, 
``All should know that the next government will not be budged 
from our inalienable rights.'' Does that lead us to have any 
hope that there is room for negotiation?
    Mr. Nader. Yes, because I think there is a middle ground 
where we could recognize their right to enrich uranium as long 
as it's peaceful, especially if it's capped. And, you know, the 
Iranian elite always talk about the U.S. pursuing a logical 
position on the nuclear program, and that's often interpreted 
in Iran as meaning having a program but also saving face. I 
mean, this is very important for them to show that sanctions 
and pressure have not worked on their decision making; 
although, I argue they have.
    So, let's give them an off-ramp on this crisis. Let's give 
them an exit and allow them to exit the nuclear crisis, because 
we've built a lot of leverage against Iran and it's time to use 
the leverage.
    Mr. Schneider. Thank you. I think that's an important 
point. With my last few seconds, Mr. Sadjadpour?
    Mr. Sadjadpour. I would just say that I would argue that 
the Obama administration's unprecedented but unreciprocated 
overtures to Iran actually made this sanctions regime happen. 
We should take that into account.
    Mr. Schneider. I think that's a good point, as well. The 
last few seconds, Iran is increasingly engaged in Latin 
America, South and Central America. Do you see Mr. Rouhani's 
election as having an impact on their involvement, good or bad, 
within the Western Hemisphere?
    Mr. Sadjadpour. Having lived in Latin America, Mexico, I'm 
confident that Iranian Shiite soft power isn't going to go a 
long ways in that part of the world. And they do have certain 
assets in line with Hezbollah, but after the death of Hugo 
Chavez, I think they've lost their chief ally in Latin America.
    Mr. Schneider. All right, thank you. I yield.
    Ms. Ros-Lehtinen. Thank you so much.
    Dr. Yoho.
    Mr. Yoho. Thank you, Madam Chair, for holding this 
incredible hearing in a timely manner with the elections in 
Iran. And I appreciate hearing from you guys, the experts, 
about this election and the dynamic in Iran.
    Additionally, I'm interested in knowing how this election 
will affect Iran's stance with both Syria and Israel. I think 
this is something I hear from you guys that we should tread 
cautiously about Mr. Rouhani as a so-called moderate in lieu of 
what I've read here that back in a newspaper in 1999, there was 
a student demonstration, and he took a real tough stance at 
clearing that. Those arrested for sabotage and destroying state 
property would face the death penalty if found guilty. That's a 
pretty tough stance.
    Then a former student was talking about how the guards 
broke into their dorm rooms and murdered students in front of 
them. And as recently as January, Rouhani stated that Syria has 
constantly been on the front line of fighting Zionism, and this 
resistance must not be weakened.
    You were saying how we should continue forward to engage 
him. How would you recommend we engage him with that kind of a 
stance? I've heard some overtones here, and I'd like to hear 
more specifically. We'll start with you, Mr. Nader.
    Mr. Nader. On the question of Syria, I see Iran's 
Revolutionary Guards and the Supreme Leader as determining 
Iran's position, and I don't feel like they're likely to budge 
on that issue. But it's also important to note that Rouhani has 
stated he wants to fix Iran's relations with key allies, such 
as Saudi Arabia. During his press conference he said the Saudis 
are our brothers. I signed the first security agreement between 
Iran and Saudi Arabia. So, if Iran's relations with the Saudis 
and some of the other Arab countries improve we could see a 
change.
    In terms of how we should engage, I believe in bilateral 
negotiations with Iran. U.S. diplomats should be able to talk 
to the Iranians. Talking to the Iranians does not mean that we 
accept their regime. It's just a foreign policy tool at our 
disposal.
    Mr. Yoho. Okay. Dr. Maloney?
    Ms. Maloney. I would echo everything that Ali has just 
said. I think that Rouhani will be able to dig up quite a bit 
of very vociferous rhetoric for Rouhani on Syria, as well as a 
number of other issues. But he did speak during the campaign 
about the need for engaging in diplomacy, about the need for 
talks between the Assad government, the Assad regime and the 
opposition, as he described them. That's more moderate rhetoric 
within the Iranian political discourse than the rest of the 
candidates certainly articulated.
    I think to the extent that he will have any influence on 
Syria, it will only be if he can make the argument that it is 
harming Iran's ability to repair its relationships with the 
world, and that comes back to the economy and his need to fix 
it.
    His ability to create confidence within the Gulf is going 
to be critical. He certainly, I think, assuages a lot of fears 
there about what direction Iran is going, and whether or not 
he's able to open up a channel of communication with Riyadh on 
this particular issue I think would be enormously important.
    Mr. Yoho. Mr. Sadjadpour?
    Mr. Sadjadpour. I see very little likelihood that Iran will 
change its position toward Israel. I think rejection of 
Israel's existence is one of the three remaining symbolic 
pillars left of the revolution and the Islamic Republic.
    With regards to Syria, as someone once wrote, Syria is not 
America's Vietnam, it's Iran's Vietnam. Iran is bleeding very 
heavily in Syria. They've spent billions of dollars to keep 
Assad afloat, and Rouhani being, as I said, someone who sees 
economic expediency oftentimes trumping revolutionary ideology, 
if he has a role, I would argue that he would probably argue 
for a different approach. But it is going to be the 
Revolutionary Guards who continue to carry out Iranian policy 
in Syria, not the presidency.
    Mr. Yoho. Okay. We keep hearing about the continual creep 
toward developing a nuclear weapon, and their nuclear program 
continuing. Do you see the day that they'll develop a weapon? 
If so, when? And if they do, what do we do?
    Mr. Nader. Well, the U.S. intelligence community has 
assessed that Iranian leadership has not made the decision to 
weaponize the program, that Ayatollah Khameini has not made 
that decision. And this is a regime that bases its decisions on 
cost-benefit calculations. The costs for Iran's pursuit of 
nuclear weapons capability are going up, and they could be 
reacting to the pressure. So, as long as those costs exist, 
there's a good chance that they will not weaponize, especially 
if we maintain the pressure, and make sure Iran is more 
transparent on its nuclear program, as Mr. Rouhani has claimed 
he would like to do, to have more transparency.
    Mr. Yoho. Okay. Dr. Maloney?
    Ms. Maloney. I think the only confidence that we'll ever 
have about an Iranian nuclear capability is when there's a 
different government in place within Iran.
    Mr. Yoho. I agree.
    Ms. Maloney. It's not within our capability to achieve that 
today or tomorrow, but I think that, ultimately, what we have 
to be focusing on constantly is putting as much distance 
between this regime and nuclear weapons capability as possible.
    Mr. Sadjadpour. I would just echo Suzanne's comments.
    Mr. Yoho. Okay. I appreciate your time, and I yield back, 
Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Dr. Yoho.
    Mr. Vargas of California.
    Mr. Vargas. Thank you very much, Madam Chairwoman. I'd also 
like to welcome the Women Parliamentarians and note that we 
have a woman chairwoman here, of course. And we're very proud 
of her on both sides of the aisle. We are.
    You know, I think we all look at this through different 
lenses. I look at it a little bit differently maybe than most 
that have spoken so far. I see two differences between 
Ahmadinejad and now Rouhani, and that is that this guy is a 
cleric, the other guy wasn't. The other guy was somewhat of a 
ruffian. This guy is a sophisticate. This guy speaks five 
different Western languages. He speaks English, he was educated 
in Scotland, he speaks French, he speaks German, he speaks 
Russian.
    I think that it's going to be very interesting the dynamic 
between the Supreme Leader and him, because they have a 
relationship on a different level that you don't have I think 
when you're not a cleric. I could see very easily that the 
Supreme Leader would say hey, you know, I trust you. You're a 
cleric. Go out there and get me some time. You know, you're a 
sophisticated guy. Go out there and talk to the West in a way 
that this other guy couldn't. Gain us some time, because you 
can see that these sanctions are really hurting us. They'll 
trust you, as they don't trust him. Now, go out there and be 
soft, look soft.
    You know, I have to say, I'm very skeptical because I could 
see that happening, and then United States saying hey, wait a 
minute, you know, we've got a little thing going here with this 
guy. Let's back up, let's ratchet back, let's throttle back, 
when we should be doing the opposite maybe in tightening the 
sanctions down, because the sanctions do seem to be working.
    What do you think about that? I mean, again, we all look at 
it through different eyes. I'm a former Jesuit so I look at it 
through the eyes of the cleric. I mean, here's a guy, these two 
people can trust each other at a level that normally you don't 
have. Anybody?
    Mr. Nader. I can just go first, briefly. The issue with 
Ahmadinejad was that in Persian culture you're supposed to 
respect your elders even if you don't like them, and 
Ahmadinejad did not do that. It is more likely than not that 
Rouhani will maintain respect for the Supreme Leader, and work 
within the parameters set for him by the Supreme Leader. Yes, 
he is charming, he's a mellow, calm guy. He's pragmatic, but I 
don't think he's going to be able to smile his way out of 
Iran's crisis.
    Again, we have to ensure that Iran is held accountable no 
matter how popular and how much opposite he is of Ahmadinejad. 
I think the fact that the international community is more 
positive toward him shouldn't mislead us into thinking that all 
of a sudden pressures on Iran are going to stop, because 
everybody realizes what the Islamic Republic is about, even if 
Rouhani is the President.
    Mr. Vargas. Doctor?
    Ms. Maloney. Very quickly, Rouhani and Khamenei have a 
relationship that dates back decades. And, obviously, that's 
going to help. It also helps explain how it is that he's gotten 
to where it is, but it's also important to realize that 
Khamenei has spent the past decade disparaging Rouhani's role, 
specifically in public with Rouhani sitting in the audience. 
It's really remarkable, you don't often see that in the Islamic 
Republic. So, you know, he made--he was forced to back down, he 
was forced to take someone whose position on the nuclear issue, 
which is obviously of critical importance to the regime, was 
not one that he has been articulating himself, that he has been 
defending and advancing himself for the past 10 years. So, I 
think that it's important that we see that there is this 
opportunity without in any way changing any of our own 
positions on the nuclear issue.
    Mr. Sadjadpour. I think after 8 years of seeing the Iranian 
cup 80 percent empty, maybe it's time to look at it 20 percent 
full just for once to say okay, this is a guy who is actually, 
as you mentioned, he studied abroad. His advisors were all US-
educated. I think in his heart of hearts he would probably 
prefer a better relationship with the United States. And I'm 
not concerned that he's going to be able to smooth-talk his way 
out of sanctions without them making any meaningful 
concessions. I don't think that's a concern we should have.
    Mr. Vargas. Well, he seems like he's already smooth-talked 
us a little bit. I mean, just saying he's moderate and all 
these other things. I have great skepticism. I think Reagan 
said, ``Trust but verify.'' Here I think it's verify and 
verify. Again, thank you very much, and I yield back.
    Ms. Ros-Lehtinen. Very good, thank you.
    Congresswoman Meng.
    Ms. Meng. I, too, want to extend a welcome to our women 
dignitaries here today. As our chairwoman and I are members of 
a body less than 19 percent female, it's very encouraging to 
see you all here today.
    On one hand, we want to speak directly to the Iranian 
people, its women, and its youth. On the other hand, we want to 
build up trust with the regime if we're going to negotiate 
successfully. What's the best way to manage these dual 
objectives?
    Mr. Nader. Ultimately, I think regime change is up to the 
Iranian people. It is not up to the United States to change the 
regime in Iran. There are ways we can help, opening up 
communication, reforming Voice of America, like Karim said. 
But, ultimately, the Iranian people will determine their own 
destiny.
    I think for now we have to make sure that Iran stops its 
nuclear pursuits, and that we can verify it. And over time, 
especially once the Supreme Leader passes away, Iran will have 
an opportunity to seek a new future, possibly without the 
Islamic Republic.
    Ms. Maloney. I think we've already got some good programs 
in place that have been in many ways put on hold because of the 
atmosphere that Ahmadinejad and this recent political context 
within Iran helped to create where it was dangerous for 
Iranians to participate in some of the international visitor 
programs, and the other opportunities to come here. That's of 
some importance to many Iranians. But the highest priority for 
Iranians is economic opportunity. Economic opportunity can only 
come through restructuring of their economy, dealing with some 
of the longstanding mismanagement, but also in the removal of 
sanctions.
    What we can do best to serve the Iranian people is to 
respond to serious offers of concessions from its government on 
the nuclear issue with meaningful sanctions reform.
    Mr. Sadjadpour. Not to belabor the point, but I think that 
we oftentimes underestimate the role that satellite television 
played in the uprisings in the Arab world, the role of Al 
Jazeera, and Al-Arabiya, and this model doesn't really exist. 
Upwards of 90 percent of Iranians rely on television as the 
primary news source, and it's basically either state television 
for their news, or BBC Persian.
    We have a huge opportunity here with Voice of America which 
we're totally squandering. It's an unprofessional service. The 
quality of programming is terrible, and with this one thing 
which costs less than an F-15 fighter jet, we can reach over 30 
million Iranians.
    Ms. Meng. Thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you. Thank you, Ms. Meng.
    Don't have anyone from our side, and don't have anybody 
here. Okay.
    Well, thank you very much for excellent testimony. It'll be 
interesting to see what the future holds with this new leader. 
And I hope that with his soft demeanor he doesn't lull us into 
thinking that he's wearing the white hat, because reforms are 
difficult to come by, as long as the Supreme Leader is calling 
the shots.
    And with that, the subcommittee is now adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


            Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
